<html>
<title> - ADVANCING U.S. INTERESTS IN THE WESTERN HEMISPHERE: THE FY 2015 FOREIGN AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                    ADVANCING U.S. INTERESTS IN THE
                    WESTERN HEMISPHERE: THE FY 2015
                         FOREIGN AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2014

                               __________

                           Serial No. 113-144

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

87-517PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana         

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
                                     ALAN GRAYSON, Florida











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Roberta S. Jacobson, Assistant Secretary, Bureau 
  for Western Hemisphere Affairs, U.S. Department of State.......    10
Ms. Elizabeth Hogan, Acting Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development....................................................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Roberta S. Jacobson: Prepared statement............    13
Ms. Elizabeth Hogan: Prepared statement..........................    19

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43

 
                    ADVANCING U.S. INTERESTS IN THE
                    WESTERN HEMISPHERE: THE FY 2015
                         FOREIGN AFFAIRS BUDGET

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. A quorum being present, the subcommittee will 
come to order.
    I will start by recognizing myself and the ranking member 
to present opening statements. Without objection, the members 
of the subcommittee can submit their opening remarks for the 
record.
    Now I yield myself as much time as I may consume to make my 
opening statement.
    Good afternoon, and welcome to the hearing on the FY2015 
budget and how the request advances U.S. interests in the 
Western Hemisphere. I am grateful to U.S. Assistant Secretary 
of State Roberta Jacobson and USAID Assistant Administrator 
Beth Hogan for coming here to testify before this subcommittee.
    As you both know, in these times of tight budgets, our 
strategy and policy in the Western Hemisphere has got to be 
focused on and reflect our vital national interests. By virtue 
of our proximity and cultural ties, our economic relationship 
with much of the Western Hemisphere is strong and increasingly 
integrated. Our free trade agenda over the years has been 
instrumental in building peace, prosperity, and the rule of law 
in our region.
    Since more than half of all of the free trade partners that 
we have are in Latin America, U.S. businesses and the American 
people stand to benefit from the strong trade and investment 
relationships that we enjoy with these wonderful neighbors.
    Assistant Secretary Jacobson, I commend your efforts to 
build on these relationships, including your important work on 
the Mexico High-Level Economic Dialogue and ongoing Trans-
Pacific Partnership negotiations. The work you and your 
colleagues do to support the Commerce Department's ``Look South 
Initiative'' is instrumental in helping U.S. small businesses 
to learn more about growing export opportunities that exist 
right here with our 12 hemispheric free trade partners. It has 
been a priority of mine that this subcommittee be a loud voice 
in favor of exporting our values of free enterprise in open 
markets to promote economic growth and energy security in our 
region. And, I have long believed that we have a real 
opportunity to achieve energy independence right here in the 
Western Hemisphere, thanks to our own energy renaissance, 
Mexico's historic energy reforms that promise to increase 
production, and Canada's vast resources.
    While the administration continues its efforts to combat 
climate change and reduce emissions in the Americas, it 
inexplicably stonewalls approval of the Keystone XL Pipeline 
project. The Keystone XL project would produce U.S. jobs and 
increase energy security, and State Department's own 
Environmental Impact Statement released in January concluded 
that it would not alter global greenhouse gas emissions.
    I believe that we must balance our environmental 
stewardship with economic growth and energy security. My 
concern is that the environmental agenda reflected in the 
administration's budget for the region has not been balanced by 
a commitment to enhancing our energy security today. This is 
plainly seen in the administration's hostile delay of the 
approval of the Keystone XL pipeline, damaging our U.S. energy 
security and diplomatic ties with Canada, without, in the 
administration's own estimation, providing any commensurate 
benefits to climate or emissions reduction goals.
    Our strategy for the Western Hemisphere should be to 
continue to promote free trade, economic growth, and 
prosperity. To achieve this, we have got to insist that our 
regional partners uphold respect for democratic institutions, 
values, and the rule of law. Without this, peace and prosperity 
are in peril.
    Nowhere is this truth more evident than in Venezuela today, 
where opposition leaders and students are being imprisoned 
without charges, demonstrators beaten, and at least 39 people 
have been killed at the hands of Venezuelan police and 
paramilitary forces.
    The Organization of American States, 40 percent funded by 
the American taxpayer, has been co-opted by the populist anti-
democratic left of Latin America, and has been shamefully 
silent in the face of violence of impending economic 
catastrophe brought on by President Maduro's authoritarian 
policies.
    As I said to Secretary Kerry at a recent hearing, it is 
increasingly difficult to justify to the American people the 
continued funding of such a feckless organization that actually 
works against our interests and our values. The United States 
must stand with the people of Venezuela with more than words, 
and I will be interested in learning what specifically the 
administration plans to do to compel Maduro to cease these 
attacks against his own people.
    Meanwhile, a year after Cuba was caught red-handed 
violating U.N. sanctions and shipping weapons to North Korea 
through the Panama Canal, the U.N. has yet to take strong 
actions to punish Cuba for this egregious violation. And Cuba 
continues to repress its people, while exporting its repressive 
tactics around the region, fueling the anti-democratic policies 
of Maduro, Morales, and Correa.
    Also among the region's authoritarian and anti-democratic 
bad actors we have Bolivia and Ecuador. In Bolivia, 
authoritarian populist President Morales has made a political 
calculation to reject the United States, expelling our 
Ambassador, DEA, and USAID.
    While right sizing of that Embassy has reduced the number 
of U.S. officials and family members dramatically, in my 
estimation we remain too large a presence for what the 
relationship with Bolivia gives us.
    The Department maintains that it is important to keep a 
pilot light on in the eventuality of a new government. While it 
can be argued that the costs of moving officers and their 
families, paying for housing, utilities, and schools for their 
dependents is a drop in the bucket compared to the overall 
Western Hemisphere budget, our relationship with Bolivia does 
not, I don't think, warrant the current presence.
    Moreover, the constant threat of being declared persona non 
grata makes the everyday work of a Foreign Service Officer very 
difficult. And, cowering for fear of expulsion from Bolivia 
should be beneath the United States.
    In Ecuador, the administration has been looking for ways to 
engage President Correa. While I have yet to receive a good 
overview of Secretary Kerry's telephone call with Ecuador's 
Foreign Minister, I do know that the Government of Ecuador 
continues to systematically suppress freedom of expression, 
threaten opposition and crackdown on civil society groups.
    Meanwhile, Ecuador is on the blacklist for its permissive 
money laundering environment and has been arbitrarily changing 
trade and investment rules, creating an unpredictable 
environment for U.S. business interests. I will be interested 
in learning what the administration's policy will be toward 
Ecuador going forward.
    Like Bolivia, the current posture of keeping our heads down 
for fear of expulsion should not be the chosen route for 
dealing with authoritarian governments that systematically 
attack democratic values and rule of law in our hemisphere.
    Recent subcommittee testimony revealed a growing Russian 
presence in the region, along with Iranian and Chinese 
influence. Just as Secretary Kerry declared an end to the 
Monroe Doctrine, Russia has announced their intention to set up 
strategic bases in Cuba, Nicaragua, and Venezuela. The American 
people want to know what the administration's strategy is in 
dealing with this increased presence of our adversaries.
    Finally, I, personally, am concerned with parts of USAID's 
family planning focus in the region. As a father of four 
children, I do not object to helping underserved indigenous 
women obtain prenatal care. But when I learn we are providing 
morning after pills and sterilization services, I can't help 
but think this is merely pro-abortion and pro-sterilization 
activists using taxpayer money to spread their anti-life 
orthodoxy to the poorest region of the Americas. This, to me, 
is not only an affront to the taxpayer, but it is a sinister 
and shameless part of, I believe, this President's anti-life 
agenda.
    We agree that the Western Hemisphere is vibrant and rich in 
resources, innovation, and human capital. With headlines mostly 
dominated by crises and challenges outside our hemisphere, it 
is imperative that we do not lose sight of the strategic 
importance of this region.
    I know you all agree with that. I look forward to hearing 
your testimony and working closely with you to better address 
our strategic interests right here in our neighborhood.
    And, with that, I would like to recognize our ranking 
member, and you may want to defer to our ranking member on the 
full committee.
    Mr. Sires. I don't think so.
    Mr. Salmon. You don't think so? [Laughter.]
    If only he wasn't such a great guy, we wouldn't want to do 
that, would we?
    Mr. Engel. I thank the chairman, my friend from Arizona, 
and my buddy from New Jersey. As the ranking member of the 
Foreign Affairs Committee, I want to thank both Chairman Salmon 
and Ranking Member Sires for holding today's hearing. Myself, 
as the former chairman of the Western Hemisphere Subcommittee, 
I feel very much at home coming back here.
    Let me first thank Secretary Jacobson for her continued 
excellent work in promoting an active U.S. policy in the 
Americas. We have worked closely together through the years, 
and I appreciate your hard work, your smarts, and your 
professionalism. So thank you very much.
    The Obama administration has set a new tone of partnership 
in the region. I am particularly appreciative of Vice President 
Biden's important new role on Western Hemisphere issues. While 
U.S. attention has understandably been on Ukraine in recent 
weeks, we cannot ignore the brave student protesters in 
Venezuela who have been unjustly repressed by President Nicolas 
Maduro.
    I am grateful for President Obama and Secretary Kerry's 
strong statements condemning the Maduro government's actions. 
At the same time, I am disappointed by the silence of OAS 
member states, many of which suffered domestic repression in 
the recent past.
    As this subcommittee is well aware, our actions at home 
have a major impact on our neighbors in Latin America and the 
Caribbean. This is particularly true with regard to the massive 
U.S. demand for illegal drugs and the continued flow of 
firearms from the U.S. to Mexico.
    Today I sent a letter to President Obama signed by 81 of my 
colleagues asking him to stop the import of military-style 
firearms into the United States as provided under the Gun 
Control Act of 1968. Enforcing this ban, as did Presidents 
George H.W. Bush and Clinton, would serve the dual purpose of 
improving public safety in the United States, and reducing 
drug-related violence in Mexico, where there have been 
approximately 70,000 organized crime-related deaths since 
December 2006, including the death of a young man in my 
district.
    In addition, it has been 43 years since President Nixon 
declared a war on drugs. Our programs have recorded a mixed 
record of success, and I think the time has come for an 
unbiased expert review of America's counternarcotics policies 
in our hemisphere.
    I, therefore, plan to reintroduce legislation, which passed 
our committee and the full House in 2009, to create an 
independent commission to evaluate U.S. drug policy in the 
Americas. I believe this commission will help us to better 
understand which counternarcotics policies work, which do not 
work, and how we can have a better counternarcotics policy 
moving forward.
    I want to mention just two other things before I close, and 
that is what has always struck me about Latin America and the 
Caribbean is how a little bit of money goes a long, long way. 
U.S. foreign aid is less than 1 percent of our budget. And I 
know we are always looking to save money, but the fact of the 
matter is it could really make the difference in many of these 
countries, not only the difference in improving the lives of 
people living in these countries, but the difference in terms 
of forging a permanent and close working relationship with the 
United States. That is why I feel we should be expanding our 
aid in the Western Hemisphere. It really, really goes a long 
way.
    And the last thing I want to raise is Cuba and Alan Gross, 
because he started his hunger strike, and I am totally in 
sympathy with him. We have got to find a way to bring him back. 
I think that there are many things which to me, through the 
years, have shown the brutality of the Castro regimes. I think 
the incarceration of Alan Gross is just par for the course, and 
we need to do everything we can to get this American citizen 
back home where he belongs, with his family.
    So thank you, again, to the witnesses for being here today, 
and for your continued commitment to these important issues. 
Assistant Secretary Jacobson, Ms. Hogan, thank you both.
    Thank you, Mr. Chairman.
    Mr. Salmon. I thank the former chairman and ranking member. 
We are really thrilled to have you here today.
    Mr. Engel. A lot of titles.
    Mr. Salmon. Lots of titles.
    And I am going to go out of order, and recognize the 
gentlewoman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Welcome 
to our witnesses. I remain increasingly concerned over the lack 
of action by the Obama administration against the human rights 
abusers in Venezuela. According to reports, there are 39 people 
killed, nearly 60 reported cases of torture, more than 2,000 
people unjustly detained, hundreds injured, and what do we get 
from the administration? Almost absolute silence.
    Leopoldo Lopez, who has been unjustly detained in a 
military prison for almost 7 weeks, now faces a 14-year prison 
sentence just for protesting peacefully to promote democratic 
principles. And, again, from the administration, crickets. Has 
anyone from our Embassy even visited Leopoldo behind bars? Have 
we made that public? Will the U.S. accept the Venezuelan 
request to put an Ambassador in DC at the OAS?
    As you know, opposition leader Maria Corina Machado was 
prevented from speaking the truth about the crisis in 
Venezuela, was stripped of her position in the legislature, and 
what was the response from the administration? Nada. It is 
shameful that the Obama administration continues to neglect the 
suffering of the Venezuelan people. Maduro has accepted this 
proposal by UNASUR to broker a peace talk between the 
government and certain factions of the opposition. It is not 
supported by the opposition as a group.
    I remain very skeptical of this smoke and mirrors deal, 
because I don't believe that UNASUR is an honest broker. The 
Venezuelan opposition cannot negotiate if they have a gun 
pointed at their head. Brazil has shown time and time again its 
unwillingness to support human rights. Colombia is at the mercy 
of Venezuela and the Castro regime, due to its misguided 
negotiations with the FARC. In Ecuador, Correa remains on the 
side of Maduro also as he tramples on democratic reforms.
    And yesterday Secretary Kerry testified in the Senate that 
the U.S. does not want to act in Venezuela because of these 
bogus negotiations. But these protests have been going on for 2 
months. Now we are using this sham of negotiations as an excuse 
to not help the opposition, at least not take action to help 
them in any way.
    The President, as we know, issued Executive Orders to 
sanction Russian violators of human rights abuses, and even up 
to last week, Mr. Chairman, the President issued an Executive 
Order authorizing sanctions for South Sudan. So I ask, ``Why 
can the administration not issue the same order today on 
Venezuela and hold human rights violators accountable?''
    And what kind of regime in Venezuela are we dealing with? 
As we know, it is a serial human rights abuser of a country. 
Our own GAO report states, ``Venezuelan officials, including 
those in the National Guard, have been bribed to facilitate 
cocaine shipments across the border with Colombia.'' The 
Venezuelan National Guard poses the most significant threat 
because the Guard reports directly to the President.
    This example illustrates the direct authority by the 
executive over the National Guard that is responsible for the 
killings in Venezuela with the help of the Castro regime and 
the involvement of narcotrafficking.
    The administration could do so much, Mr. Chairman, as you 
know. It is shameful to have this silence, because Maduro hears 
this silence. Now we are going to use the excuse of this new 
negotiations period, but this negotiations ruse is a new trick. 
The protests have been going on for weeks, and we have not done 
anything.
    And, lastly, Mr. Chairman, thank you for the time on Haiti. 
I was glad to lead a bi-partisan small delegation to Haiti, and 
we were very happy to see improvements in our program, but of 
course there is still so much work left to be done.
    And I wanted to ask about two specific items that we saw in 
our trip. We visited the SONAPI Industrial Park. We met a 
factory owner named Stephan Coles, and his company is 
interested in expanding the operations to the north at our 
Caracol Industrial Park, and it provides good, quality jobs, 
but he believes that USAID has not cooperated fully in this 
matter.
    And, secondly, we visited Project Medishare, which is 
Haiti's only critical care and trauma hospital, and is run by a 
constituent of mine, Dr. Barth Green, at the University of 
Miami. So the hospital is having electrical troubles, et 
cetera, wants to expand its operations, and I hope that your 
office is able to help both of these programs in Haiti.
    Thank you very much for the time, Mr. Chairman. Thank you.
    Mr. Salmon. I recognize the ranking member.
    Mr. Sires. Thank you, Mr. Chairman. Good afternoon, and 
thank you to our witnesses for being here today.
    Today's hearing on the Western Hemisphere's Fiscal Year 
2015 budget appropriately follows the subcommittee's previous 
discussion on U.S. engagement in the hemisphere. That debate, 
and today's discussion, occur in the context of exceedingly 
greater and complex foreign policy challenges in a region that 
has evolved to become increasingly less reliant on the United 
States.
    While I do not believe the U.S. is implicitly attempting to 
disengage from the Western Hemisphere, years of focus elsewhere 
have come at the expense of a policy toward the Americas. 
Hence, otherwise laudable achievements have been overshadowed 
by the combination of an increasingly independent, 
ideologically diverse region, and new and lingering challenges, 
challenges to democracy and citizen security, and decreasing 
U.S. foreign aid.
    The administration's Fiscal Year 2015 request of $1.3 
billion is 10 percent below the 2014 estimate, and 27 percent 
lower than Fiscal Year 2012, all of which has given way to the 
perception that the United States is not paying appropriate 
attention to our hemisphere.
    As the foreign landscape evolved, so, too, has our 
respective diplomatic, economic, and security policies. The 
U.S. may have been preliminary in the direct foreign aid 
business, but as countries have demonstrated the economic and 
institutional maturity to carry out activities on their own, 
the U.S. has appropriately adopted its programs to support 
these countries' capacities to address their challenges 
independently.
    This is particularly true in countries like Mexico and 
Colombia, which together with Haiti, remain the three largest 
recipients of Fiscal Year 2015 requests, receiving more than 52 
percent of the region's funding. They also comprise the largest 
cuts to the budget. Compared to Fiscal Year 2014 estimate, 
Mexico's Merida Initiative is being cut by $70 million, as 
focus is shifting to lower cost rule-of-law programs and as 
Colombia has taken ownership of the security programs, U.S. 
assistance is decreasing by $44 million.
    We must try to strike a balance between citizen security 
initiatives and traditional development programs that can 
ensure peace and economic prosperity. Drug trafficking and 
organized crime that plague the northern triangle of Central 
America have spilled over into the Caribbean. Yet, compared to 
Fiscal Year 2014, funding for CARSI will be cut by 20 percent 
to $130 million, and the Caribbean Basin Secure Initiative will 
be cut by 11 percent to $57 million.
    There are, however, slightly reassuring aid increases at 
the individual country level. Peru will see a 25-percent 
increase of $94 million to support counternarcotics and 
alternative development. El Salvador, Guatemala, and Honduras 
will also see increases for traditional development programs to 
reinforce security objectives. On the whole, the region is a 
mixed bag of hope, opportunity, disparity, and insecurity.
    There are new regional associations, such as ALBA and 
CELAC, that exclude the United States but have mostly been 
utilized as a medium to espouse anti-Americanism.
    China's economic expansion and Russia's dubious meddling is 
concerning. However, the U.S. is Latin America's largest 
trading partner and source of foreign investment. In fact, the 
U.S. sells more goods to Latin America than China.
    Total U.S. trade with the region rose from $663 billion in 
2010 to $846 billion in 2013, a 27-percent increase. 
Additionally, cultural norms are being reinforced by trade, 
travel, and immigration. And U.S. energy cooperation with the 
region has expanded, but not enough to counteract Venezuela's 
destabilizing Federal dollars and diplomacy.
    Without a doubt, significant challenges remain. Alan Gross 
remains in jail while Joanne Chesimard roams freely in Cuba. 
Disparity is abundant, with nearly 30 percent of the region's 
population living in poverty. Each year hundreds die along our 
southern border in their aspiration to a better life through 
crossing into the United States, while others remain threatened 
by cartel violence.
    With the exception of Cuba, democracy in the region has 
progressed, but is still threatened by organized crime and 
leaders that have abused executive power. The OAS is divided 
and has been co-opted by factious or member states that have 
either abandoned their democratic principle or have all but 
forgotten their own history with military dictatorships. And 
every day in Venezuela anti-government demonstrators continue 
to express their frustration with the deteriorating economic, 
political, and security conditions in the country.
    Finally, in regards to the story regarding U.S. and Cuba's 
Twitter program, what we have is an attempt toward mystery and 
intrigue to USAID's human rights and democracy-promoting 
initiatives, grossly exaggerating the facts. It would be a 
shame if the intent of this story was rooted in an effort to 
air grievances with the current U.S. policy or to discredit the 
hardworking men and women of our foreign, diplomatic, and aid 
agencies for non-related matters.
    It is also unfortunate that some of the media are far more 
worried about the program that dares to provide the means for 
the Cuban people to freely communicate instead of highlighting 
the poor economic human rights condition the Cuban Government 
imposes on its people.
    I commend and wholeheartedly support USAID's democracy 
promotion efforts in Cuba and wish we could do more to support 
the desire for freedom of Cubans and the countless others 
around the world that yearn for democracy in the future.
    Thank you.
    Mr. Salmon. Thank you.
    Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman. I don't have an 
opening statement. I will just wait for the questions. I yield 
back.
    Mr. Salmon. Thank you. Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman, and I will be brief. 
First, I want to thank both Ms. Hogan and Assistant Secretary 
Jacobson for the fine work that you do, and all of the men and 
women at the State Department. I think oftentimes the work that 
you do is unheralded, and you really represent our nation well, 
as our State Department does as a whole. I think it makes all 
of the difference in the world.
    Earlier today, the full committee had a hearing, 
Administrator Shah was here, and I think that there was a good 
feeling, I received anyways, from the work that USAID has been 
doing around the world in trying to make sure that we are 
curing diseases and stopping young people from dying. We found 
out we are getting the best bang for our buck when we work in 
countries, and especially undeveloped countries, in that way as 
opposed to circumstances where we have to go to war or anything 
of that nature.
    So I just, first, want to thank both of you for the work 
that you do here in your capacity, with reference to others 
like you who are similarly situated in the State Department.
    Now, as to the Western Hemisphere, we need to make sure 
that we focus, and I think that we are starting to do that, on 
building strong relationships. It is our hemisphere; we share 
it with the countries in Central and South America and Canada.
    And sometimes I think it seems like we spend a lot of time 
worrying about what other countries are doing in Latin America. 
The number one factor, I believe, affecting U.S. relations with 
Latin America is how the United States conducts itself in the 
region.
    So we have to spend, I believe, less time worrying about 
other countries and more time getting our own policies right in 
a post-Cold War period. Given what is taking place there now, I 
might not be able to say ``post-Cold War'' again, but I just 
think that how we deal with our neighbors, especially to our 
south, that it should not be in the same manner that we dealt 
with them when there was a Soviet Union. I can say that.
    You know, during my time in Congress, the world has 
changed. Latin America, indeed, has changed, and I think that 
the region is now more capable, more economically secure, and 
more open to the world. It is not just us, and I think that is 
good for us in the United States, and we should see the fact 
that Latin America has a broader set of international relations 
as an overall positive and not a negative.
    Now, not every country in the region is going to agree with 
us on every issue. I understand that, and I think that is okay. 
But part of building a partnership means listening to what our 
other partners want, and trying to understand their point of 
view. That is what has to happen. So I commend the 
administration on building strong relationships with some of 
the more like-minded countries. That is tremendously important. 
We have got to build upon that.
    But I also hope that you keep trying to establish common 
ground with countries where the relationship is not so easy. 
Our growing focus should be on issues like education and 
entrepreneurship and making sure we are also focused on 
capacity-building. That is another good way to do it.
    I think that we are doing it in a good way with a number of 
our countries who are part of TPP, as we do those negotiations. 
That is going to help the whole region.
    So I will yield back the rest of my time here, but I just 
want to stop by saying I think that the glass is not half 
empty; I think it is half full, and I just want to keep filling 
it up. And I think that we would be better and safer in this 
hemisphere by working collectively together on that manner.
    Thank you, and I yield back the balance of my time.
    Mr. Salmon. I thank the gentleman.
    Pursuant to committee rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. And, without 
objection, the hearing record will remain open for 7 days to 
allow for statements, questions, and extraneous materials for 
the record, subject to the length limitation of the rules.
    I would like to now introduce the panel. First of all, The 
Honorable Roberta Jacobson is Assistant Secretary for the 
Western Hemisphere Affairs at the Department of State. She also 
served as a Senior Coordinator for Citizen Security Initiatives 
in the Western Hemisphere and as Deputy Chief of Mission at the 
U.S. Embassy in Lima, Peru.
    Ms. Jacobson holds an M.A. in law and diplomacy from the 
Fletcher School of Law and Diplomacy and a B.A. from Brown 
University.
    Ms. Hogan is the Acting Assistant Administrator for U.S. 
Agency for International Development, Bureau for Latin America 
and the Caribbean. Previously, she served as the Director of 
the agency's Haiti Task Team, overseeing reconstruction efforts 
after the 2010 earthquake.
    Ms. Hogan holds an M.A. in international public policy from 
Johns Hopkins University School of Advanced International 
Studies and an M.A. in national security policy from National 
War College.
    You have all worked with the lighting system many, many 
times, and understand that when you come to the last minute the 
light will go amber, and when it turns red we are out of time. 
If you go a little bit over, I am not going to really call you 
on it. So say what you need to say. This is too important to 
not hear everything that has to be said.
    So, with that, I would like to recognize Undersecretary--or 
Assistant Secretary Jacobson.

   STATEMENT OF THE HONORABLE ROBERTA S. JACOBSON, ASSISTANT 
    SECRETARY, BUREAU FOR WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Jacobson. Thank you for the promotion, but I am fine 
where I am.
    Chairman Salmon, Chair Ros-Lehtinen, and Ranking Member 
Sires, Mr. Engel has left, but I was happy to see him again. I 
am really happy to be back in front of you. It has been a 
little while since we have talked, but I want to start out by 
saying how much we appreciate the interest of everybody on this 
subcommittee.
    We have continued to talk in between hearings, and I am so 
pleased to be here today and speak with you about the 
priorities for the Western Hemisphere. This subcommittee's 
support for U.S. assistance, our policies and our engagement in 
the region have been crucial.
    The Western hemisphere, as I think we have all noted, is a 
vitally important region for the United States. It is home to 
robust democracies, and our closest trading partners. But the 
converse is also true. The United States remains the most 
influential and essential partner for nearly every country in 
the hemisphere.
    I am well aware of the critique that the United States is 
not paying enough attention to the Western Hemisphere. And, 
honestly, I can't recall a time when an administration that I 
served, either Republican or Democratic, was not accused of 
paying Latin America less attention than it deserves.
    This administration has maintained a remarkable level of 
engagement on hemispheric issues by the President, the Vice 
President, Secretary Kerry, and other members of the cabinet. 
The President returned recently from his fifth trip to Mexico 
and met last year with the leaders of Central America, Haiti, 
Colombia, Peru, and Chile.
    The Vice President has made seven trips to the region, four 
in the last year, and the Secretary three, including an OAS 
General Assembly. This high-level attention has allowed us to 
advance a pragmatic, well-integrated, results-oriented agenda.
    Every available metric--public opinion polls, levels of 
trade and investment, culture and family ties, security 
cooperation, and the lively democratic debate in many 
countries--supports the view that the United States' engagement 
and influence in the hemisphere is not waning, but actually on 
the rise.
    There are places like Cuba, Venezuela, and Ecuador where we 
have less than the full and productive relationship we would 
like, but the people in those countries admire and respect the 
United States for who we are, for our values, for our social 
mobility, and for our diversity.
    We are particularly concerned with the deteriorating 
situation in Venezuela where the United States has forthrightly 
called on the Venezuelan Government to respect human rights and 
the rule of law and begin a peaceful, inclusive dialogue that 
will reduce the current tension.
    President Obama, Vice President Biden, and Secretary Kerry 
have each made clear our view that political prisoners must be 
released and steps taken to halt the violence, including by 
government-backed groups. I know the committee shares our 
concern, and we welcome the strong support for democracy in 
Venezuela.
    Our commitment to democracy and human rights is unwavering 
and remains the center of gravity of our strategy in the 
region. Even as we work for a peaceful end to the crisis in 
Venezuela, we are actively promoting our core priorities 
throughout the hemisphere, creating jobs and prosperity, 
expanding education and innovation, promoting energy 
cooperation, and defending democratic values.
    We have placed our economic engagement at the center of 
this strategy. Our current efforts, as noted, include focusing 
on the Trans-Pacific Partnership negotiations that include 
Chile, Peru, and our NAFTA partners.
    At the North American Leaders Summit in Mexico in March, 
President Obama and his counterparts highlighted a shared 
continental vision, providing new opportunities for job 
creation and investment and deepened global cooperation. While 
millions of people have benefitted from Latin America's 
economic progress, millions also have been left behind, and we 
must ensure they, too, can benefit from the tide of economic 
prosperity.
    Youth involvement is vital to our entrepreneurship 
initiatives, including the Small Business Network of the 
Americas, the Women's Entrepreneurship in the Americas 
Initiative, and 100,000 Strong in the Americas Education 
Initiative.
    But prosperity cannot exist without security, and that is 
why we will continue to invest in security cooperation with 
Mexico, Central America, the Caribbean, and Colombia, with a 
focus on strengthening democratic institutions and the rule of 
law to capitalize on earlier investments in equipment.
    A more vigorous and focused energy diplomacy is another 
core priority. The shift in the world's energy map to the 
Americas has created huge openings for greater cooperation on 
energy matters, including collaborating regionally to promote 
energy security with responsible environmental stewardship.
    Mr. Chairman, let me close by saying, again, that I am very 
grateful for the support that this committee has provided in 
the hemisphere and its leadership. I believe that we are united 
in our vision of seeking to advance democracy, human rights, 
social development, security, and economic prosperity in the 
region, and that we have established a basis for strong 
bipartisan cooperation to the great benefit of our nation.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Jacobson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Salmon. Thank you.
    Ms. Hogan, you are recognized.

      STATEMENT OF MS. ELIZABETH HOGAN, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Hogan. Thank you very much. Mr. Chairman, Ranking 
Member Sires, and distinguished members of the subcommittee, it 
is an honor for me to testify before you today on behalf of 
USAID. I am grateful for the committee's support of our 
programs in Latin America and the Caribbean, and I welcome your 
interest in reviewing our progress and our challenges that we 
continue to face.
    As Administrator Shah, who testified before you earlier 
today had stated, our mission across the globe is to partner to 
end extreme poverty and promote resilient, democratic 
societies. Our best partners in this effort are democratic 
states, because their commitment to growing their economies and 
investing in their people makes our investments go further.
    Increasingly, we have such partners in Latin America and 
the Caribbean region where open societies, sensible policies, 
and smart donor investments have helped fuel impressive social, 
political, and economic progress. However, the continued 
progress in the region is threatened by a persistent wave of 
crime and violence that, if not addressed, will impede efforts 
to promote inclusive growth, reduce poverty, bolster 
resilience, and strengthen democracy. Central to USAID's 
strategy in the region is crime and violence prevention.
    Our at-risk youth programs, community policing, and justice 
reform efforts complement the traditional law enforcement and 
interdiction activities of our interagency partners.
    Our prevention programs are also reinforced by education 
interventions, which prioritize early grade literacy and youth-
focused workforce development for at-risk youth. There are 
signs that our programs are making a critical difference. 
Preliminary findings from the impact evaluation of our crime 
prevention programs provide statistically significant evidence 
that crime rates are lower and public perception of security 
higher in the communities where we work.
    As you well know, crime and violence does more than 
threaten public safety and constrain growth. Equally as 
dangerous is its corrosive effect on democracy. Despite the 
region's impressive progress, we are witnessing democratic 
backsliding in some countries. This includes constraints on 
civil society, limits on press freedoms, and increasing 
executive overreach. USAID remains steadfast in its support for 
those who strive to build more open, responsive democracies in 
this region.
    To empower citizens to voice their opinions and hold 
governments accountable, we continue to support civil society 
groups and human rights organizations, while training 
journalists to protect themselves and their sources.
    The region is dealing with yet another threat to its 
economic environmental resilience--the negative impact of 
global climate change. Under the President's Global Climate 
Change Initiative, we work on two fronts to help countries 
manage this challenge. First, we help reduce emissions by 
promoting investments in renewable energy and energy 
efficiency. Second, we help countries adapt to changes in 
climate by upgrading critical infrastructure, protecting 
potable water supplies, and developing risk mitigation 
measures.
    Our efforts to end extreme poverty and promote resilient 
democratic societies converge in Haiti where 65 percent of the 
population is considered extremely poor. Today, the Government 
of Haiti is leading a successful multi-national effort to 
attract investment and strengthen its economy.
    The United States Government is starting to deliver 
concrete development dividends. Thousands of farmers are 
earning higher incomes and increasing crop yields. New 
businesses are creating jobs for the poor. Perhaps most 
importantly, Haitian institutions are playing a more prominent 
role in their own development.
    While we are encouraged by this progress, the United States 
and other donors can only do so much. Ultimately, the job of 
creating the conditions under which businesses can thrive, 
create jobs that eliminate poverty, depends on Haiti's leaders. 
Only they can pass and implement legislation to fight 
corruption, attract investment, modernize the justice sector, 
and hold long-delayed municipal and parliamentary elections.
    To strengthen the ability of countries to manage their own 
development, we are increasingly using local entities to 
implement programs and provide assistance. Perhaps nowhere else 
in the world does USAID have as dynamic a set of private sector 
partners as in this region. Increasingly, we are joining forces 
with the likes of Cisco, Hanes, Intel, Microsoft, and 
Starbucks, just to name a few, that will spur growth, create 
jobs, open opportunities for youth, and alleviate poverty. Over 
the last 2 years alone, we have leveraged $150 million through 
public-private partnerships.
    In sum, our development approaches include strengthening 
local capacity, facilitating south-south cooperation, investing 
in innovation, leveraging the private sector, and prioritizing 
science and technology. We believe that these approaches will 
help enable countries to leapfrog their biggest security, 
environmental, and governance challenges, and join us as 
partners around areas of mutual interest.
    Again, thank you for your leadership and for your support 
of the work that we do in this region. I have submitted a 
statement for the record, and I look forward to your questions.
    [The prepared statement of Ms. Hogan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Salmon. Thank you very much.
    Before we begin with questions, I would like to ask for 
your help. I know that subcommittee staff has asked for 
information in the past, and I have been disappointed with how 
long it has taken to provide them with a response. And I know 
you both understand how important it is to have a strong 
collaborative relationship, so we can work on responses and 
maybe improve those times going forward. I would really 
appreciate it.
    Assistant Secretary Jacobson, several of us up here have 
spoken about concerns with Maduro's Venezuela and people that 
have been massacred in the streets, as well as human rights 
violations galore. The gentlewoman from Florida has talked 
about how testimony before the OAS was rebuffed and not 
allowed.
    I am asking, what can we do? What is the administration 
planning to do concretely beyond just announcing Maduro's 
violent tactics? What is our game plan?
    Ms. Jacobson. Thank you, Mr. Chairman. I appreciate the 
question, and I think it is important. Obviously, part of the 
strategy moving forward to get Venezuela--really, to get 
Venezuelans talking to each other, which is what is necessary, 
is rhetorical, is to respond to each repressive tactic by the 
government and to support the notion that Venezuelans have 
decreasing amounts of space in which to act, and, therefore, 
they need an opening, an area where they can pursue their goals 
and their dreams. The opposition needs much greater space, 
whether it is in the National Assembly or the media, et cetera.
    But a great deal of what we are trying to do is working 
with other countries in the hemisphere, some of which are in 
agreement with us in support of a more open system in 
Venezuela, and some of which are clearly not. We have seen 
that. But there are quite a few countries who are extremely 
concerned about what is going on in Venezuela, and coordinating 
with those countries is important.
    We have said from the beginning that what we think is most 
important is having an external presence for a real dialogue, 
so that Venezuelans can talk to each other with some sense of 
confidence, because the situation is so polarized.
    Right now, you have the UNASUR countries, many of the 
foreign ministers, in Venezuela. We have been encouraging that 
process, but we also believe that it is very important that the 
opposition feels confidence in the process moving forward, and 
that whatever third party mediator or mediators, if there are 
multiple--and there has been some obvious discussion in the 
press about the Vatican--that those people create a space in 
which everyone can have confidence to pursue their agenda.
    This seems to be getting underway. We have worked closely 
with a number of countries around the hemisphere and outside on 
this possibility, and we hope that that will begin to make a 
difference.
    Mr. Salmon. I know the ranking member and I have both 
expressed our frustration with the goings-on with OAS, and you 
and I spoke privately about it as well. I think we have to send 
a very clear message to them, at least from this body, that not 
only are we watching but we are growing tired of their 
shenanigans and their lack of response to important issues.
    And there may be a time--I hope we don't have to do this, 
but there may be a time when this Congress is going to have to 
vote with its pocketbook. And I think they have to understand 
that--we understand that dialogue and a free flow of ideas is 
important, but this body is there to protect freedom and 
democratic views and opportunities for the protection of human 
rights.
    And while I understand that there are a lot of the 
subgroups within that body that do some good things, the 
leadership at the top is impotent and ineffective. And, I--
rather than just wait them out, I think that they have to know 
that our patience is wearing very, very thin, and I hope that 
you all will share that message back with them, that it becomes 
increasingly more difficult for us to justify to our taxpayers 
that we are funding 40 percent of that organization when the 
returns aren't very great.
    I have another question real quick. It is regarding 
President Obama's visit to Mexico for the North American 
Leaders Summit. Ranking Member Sires and I sent him a letter 
expressing some of our hopes for the summit. One of them was 
establishing a High-Level Security Dialogue, much like the 
High-Level Economic Dialogue that we have with Mexico.
    And I understand that some progress has been made. You have 
denoted some of that in your comments. I hope you will provide 
the committee with some details of how the dialogue on the 
security cooperation with Mexico is going, and what progress 
you see happening, and what more needs to be done.
    Ms. Jacobson. Absolutely. And I appreciate the question. As 
you know, I have been involved in the Merida Initiative since 
its inception, and I continue to believe that this is an 
incredibly important part of our bilateral relationship.
    I think you have seen, Mr. Chairman, that in recent weeks 
there have been some significant strides in cooperation that 
have resulted in the arrest of Chapo Guzman of the Sinaloa 
Cartel, and I think that in the past year the cooperation with 
Mexico has become ever-more fluid and more routine, and that is 
a very good thing.
    We had a mechanism under the previous Mexican Government 
called the high-level group, which met on security. It included 
about five different cabinet members. We needed to wait until 
this new government felt comfortable that all of the procedures 
were in the right place.
    But I think led by Rand Beers at the NSC, and others, from 
the Homeland Security perspective, as well as the NSC, the 
State Department is beginning to talk with our Mexican 
counterparts about how we can restart the highest level 
security dialogue, because, frankly, the other members of the 
team at the undersecretary and other levels have really been 
working pretty productively over the last year, and I think you 
are beginning to see the fruits of that, but it is definitely 
not forgotten in the emphasis on the economic.
    Mr. Salmon. My time has expired.
    I recognize the gentleman from New Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Assistant Secretary, I have had a few Members that have 
come to me, because they are not on the Foreign Affairs 
Committee, and they are very concerned about the violence in 
Mexico. And I know the State Department travel warnings for 
Tamaulipas, Mexico, and the southern border reflect the dire 
security situation. Just last week, eight people were killed in 
Matamoros, and the decapitated body of a former mayor of Nuevo 
Laredo was found.
    When can we expect the Mexican Government to respond in a 
fashion similar to its previous actions in Juarez and Tijuana, 
Mexico?
    Ms. Jacobson. Mr. Sires, I certainly appreciate the 
question, and this is obviously of great concern, and our 
travel warning does outline for American citizens what we think 
is critical that they know before they go to Mexico. Levels of 
violence in Mexico are still far higher than we would like to 
see them, far higher than the Mexican Government would like to 
see certainly.
    And what you see--and I think you implied as much in your 
question--there was a time when Juarez was the place you could 
not walk alone. You couldn't walk outside; it was terribly 
violent. It is considerably better now. The question is: How do 
you keep responding to transnational criminal organizations 
which move and shift and don't have to respect the law? And I 
think some of the models that the Mexican Government and we are 
working on, especially with AID in strengthening communities, 
is one of the most important things we can do.
    We also have begun to work at the state level with Mexico, 
in areas of Mexico, on the police. We have done very good work 
at the Federal level, but the vast majority of policy in Mexico 
are at the state and local level. So I think that this 
government really does embrace a lot of the work that is 
critical to making places safer, working with communities, 
accelerating the judicial reform to make sure that cases are 
dealt with and people convicted for crimes, and making the 
police more effective and more respectful of those communities.
    But I think it is a continuing sort of hard slog. We have 
been encouraged, certainly, by our partnership with the 
Mexicans in areas that have developed into very high crime, 
such as Nuevo Laredo, as well as Michoacan and other areas, and 
are beginning to work with them on the southern border.
    Mr. Sires. Well, I would suggest many members are concerned 
about the violence, and I think we have to relay that to the 
government, that somehow this is impacting not just life in 
Mexico but life in America also.
    Ms. Hogan, do you think the USAID program is a proper venue 
to set up Twitter programs in some of these countries? I am not 
going to ask if you have a replacement for the Twitter program 
in Cuba. I am not asking you that. I am just want to know if it 
is the proper venue.
    Ms. Hogan. I believe that anything that helps Cubans have 
an increase in their ability to share information amongst 
themselves is a good thing. I think what we have done in Cuba 
over the past many years to promote information exchange, both 
within the island and to get unfettered information from 
outside the island, has helped to support activists in Cuba who 
are pressing for broader democratic space.
    I think this was a successful test, that there really is 
interest there within Cuban society to have these kinds of new 
technologies available to them, and I hope that they will going 
forward.
    Mr. Sires. I am starting to see in my district a great deal 
of people from Venezuela. Obviously they are looking for 
security, but the stories that I am hearing in terms of the 
groups of people that come down on the demonstrators, and 
beating them and, I mean, they actually have left because some 
of the members of their families have been trampled by these 
groups.
    So I hope that this dialogue works, but I am not so 
hopeful. I understand Cuba has 30,000 troops or 30,000 members 
in Venezuela. Obviously, they also have--one of the elitist 
brigades that they have, they call it Avispas Negas, which is 
called the Black WASP group, which is in charge of maintaining 
order in Cuba.
    So I would urge you, and I would hope that the OAS would 
say something about this--they are talking about us interfering 
in other countries. Here you have a country with 30,000 
members, and another one within our hemisphere, and I am 
concerned about the Russians, the excursions in the region, the 
Iranians in the region. I hope we are tracking all of this.
    I think it was a bad mistake to say that the Monroe 
Doctrine is not in effect anymore. I think we needed that ace 
in the hole.
    Thank you.
    Mr. Salmon. I thank the gentleman.
    Recognize the gentlewoman from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Madam Secretary, to continue on the issue of Venezuela, has 
anyone from our office even visited Leopoldo Lopez who is 
behind bars in a military prison? Will the U.S. accept the 
Venezuelan request to put an Ambassador in DC? And, if so, why?
    Secretary Kerry is now hiding behind the proposed UNASUR 
talks to keep from acting. So, Madam Secretary, what has been 
your excuse for the past 2 months for not acting before this 
false negotiation sham? Why can the administration not issue an 
Executive Order today on Venezuela to hold human rights 
violators accountable?
    And I wanted to bring to your attention--I am sure that you 
have already seen it--the statements made by Nicolas Maduro, 
the supposed President of Venezuela, who won by fraud, he says 
that he does not need to negotiate, and these are his quotes: 
``There is no negotiations in Venezuela. I will not participate 
in one.'' He says, ``I don't have anything to negotiate with 
anyone about, and I will not negotiate the Socialist 
Revolution.''
    And the countries that are pushing this sham of 
negotiations are countries that have remained totally silent or 
else complicit in the murderous rage of Nicolas Maduro. Brazil 
has not supported any of the student-led protests siding with 
Maduro. Colombia, silence; Ecuador, silence or siding with 
Maduro.
    So these are the countries that are leading the 
negotiations, and they have already taken their position in 
favor of Maduro and have voted that way with him in the OAS. 
And these are the leaders of the negotiations, and these are 
his quotes from today--Nicolas Maduro. So now we are saying we 
can't push because we have got these negotiations. They are 
false. Only one group of the opposition is for these 
negotiations. The vast majority are not for it because they 
know Maduro says, ``I don't need to negotiate with anyone.''
    And yet, so I ask you, have we visited Leopoldo Lopez? If 
not, why not? Are we going to accept a Venezuelan Ambassador in 
DC? Why would we? And why don't we put in the Executive Order, 
as we have done in Russia, who have violated the human rights 
of folks in Ukraine. We have barred them from entry into the 
United States. We have frozen their accounts. We have blocked 
their properties. The President has done so. He has taken 
action in South Sudan as recently as just a few days ago.
    Why are the Venezuelan people not deserving of this help 
from the United States?
    Ms. Jacobson. Thank you, Madam Chair. Let me start out and 
take these sort of in order. We have made very clear that we do 
not believe Leopoldo Lopez should be in prison. We believe he 
should be released. We will continue to make that assertion.
    Ms. Ros-Lehtinen. Have we visited him?
    Ms. Jacobson. No, we have not.
    Ms. Ros-Lehtinen. Have we made any attempt to visit him?
    Ms. Jacobson. We have not visited him. I don't----
    Ms. Ros-Lehtinen. Do you consider him a political prisoner 
or a common criminal?
    Ms. Jacobson. Well, we certainly don't believe that he 
should be in prison. I do think that he is being penalized for 
peaceful protest. And if they have charges against him, which 
they have now finally brought at the end of the 45-day period, 
I don't see any reason why he should not be allowed out of 
prison, frankly, to continue peaceful work.
    Ms. Ros-Lehtinen. Have you put out a statement of support 
for Leopoldo Lopez or calling for--are we going to send anyone 
from our Embassy to visit him? What a strong statement that 
would make because, as you know, he is not going to be the only 
one who is going to be held in jail. If Maduro sees that the 
U.S. does nothing when somebody is brought up on trumped-up 
charges, Maria Corina Machado is next, and so will other 
leaders.
    Ms. Jacobson. And two mayors have already been relieved of 
their position and charged with crimes.
    Ms. Ros-Lehtinen. And we did what?
    Ms. Jacobson. And we will continue to speak out in 
opposition to those kinds of actions. I think it unlikely we 
would be allowed to visit Leopoldo Lopez.
    Ms. Ros-Lehtinen. We don't know if we don't try.
    Ms. Jacobson. I understand that. But we have been very 
clear about our opposition to the repressive tactics that this 
government has used against people trying to conduct their job 
as mayor or peacefully protest. And we will continue to be 
strongly on the side of----
    Ms. Ros-Lehtinen. We have visited Alan Gross. We regularly 
visit Alan Gross in prison, and those trumped-up charges. 
Leopoldo Lopez, as you stated, are trumped-up charges. He is a 
political prisoner. We should send a message by visiting him.
    Ms. Jacobson. I appreciate that perspective. We are able to 
see Alan Gross because he is an American citizen, and we have 
that right under the Vienna Convention.
    But let me just go through some of the other items. You 
talked about the proposal to put a Venezuelan Ambassador in the 
United States. We feel very, very strongly that this is not 
about the bilateral relationship between the United States and 
Venezuela, and, therefore, we are not taking action to allow a 
Venezuelan Ambassador in the United States yet because we think 
the action needs to be in Venezuela, with Venezuelans talking 
to each other and our doing everything we can to facilitate 
that, not to allow the distraction of charges against us or 
making this about the United States and our bilateral 
relationship.
    Ms. Ros-Lehtinen. I only have 30 seconds left.
    Ms. Jacobson. I am sorry.
    Ms. Ros-Lehtinen. What about the Executive Order? We have 
acted in other countries. Are the Venezuelan people not 
deserving of having their violators held accountable?
    Ms. Jacobson. They surely are, ma'am, and that is one of 
the reasons why, as the Secretary and I have both said, we are 
holding in abeyance implementation of any restrictions, be they 
visa sanctions or revocations or further sanctions, which we 
believe we have the authority to take, while we see, in support 
of the opposition, whether these conversations are going to go 
anywhere.
    Ms. Ros-Lehtinen. But these conversations, you will agree, 
are just brand new. That is the new excuse. So that is why 
Secretary Kerry--I know my time is up, so I won't belabor the 
point. But that is the new excuse. The protests have been going 
on for 2 months while the administration remains silent.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    The chair recognizes Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me turn the area of focus for a second. I have been 
concerned about African-Colombians and those that are 
indigenous to Central and South America. These groups have been 
substantially marginalized in the hemisphere.
    And I will ask Ms. Hogan, and then also if you want to 
answer, Assistant Secretary Jacobson--but my question is, what 
programs have you provided to promote greater social inclusion 
for those traditionally marginalized groups in the hemisphere?
    Ms. Hogan. Thank you very much for that question. In fact, 
just Friday of last week, we signed a new memorandum of 
understanding with a very popular Latin rock star named Carlos 
Vives, who is going to be the first Ambassador for inclusion, 
focusing specifically on Afro-Colombians. He is from Colombia. 
He is not Afro-Colombian, but he is very dedicated to 
showcasing the rich cultural heritage and music heritage that 
Afro-Colombians are contributing to Colombia and to the world.
    And so he wants to use his celebrity to shine a light on 
that. And working directly with him, we are going to help 
organize conferences and events whereby we can actually help 
raise resources to invest in Afro-Colombian communities.
    I know this morning Dr. Shah talked to you about the work 
that we are doing with Afro-Colombians in the private sector in 
terms of training them for modern economy jobs. We thus far 
have seen 1,000 Afro-Colombians move into jobs in 100 
companies. And by the end of 2016, we hope that number will 
grow to 10,000.
    But in other parts of the region, we are also very much 
focused on the indigenous populations. In fact, in Guatemala, 
almost our entire program is focused on the western highlands, 
which is predominantly indigenous. And we have focused our 
health resources, education resources, food security sources, 
to help them reach parity with other Guatemalans who share 
middle income status. And so we are doing it there, we are 
doing it in Peru, and we are doing it in Honduras as well.
    So it is a very important part of our program, because as 
we see development gains in the region, we also see certain 
vulnerable populations falling behind. And so we are all about 
promoting inclusive growth. And if we want to do that, we need 
to reach out to these indigenous communities, and we are doing 
so.
    Mr. Meeks. Thank you for that, and that is tremendously 
important, and throughout the region, because I did say 
African-Colombians, which I have been focused on, but those of 
African descent throughout, and those who are indigenous, 
because they all have been marginalized. And, as a result, one 
of the things that I see, and I can equate because we still 
have educational problems here in the United States, and trying 
to make sure people are educated, I know how we pushed 
ourselves up.
    I think that there is a critical need to develop education 
in some of these communities also throughout that has been 
marginalized, and this is something that I think that, as I 
have traveled throughout the region, many of these countries 
are struggling with.
    So my question is, what can we in the United States do 
better to address the education and the skills gaps in all of 
the Americas?
    Ms. Jacobson. If I could start. This is incredibly 
important, and I think it is one of the things that really is 
central to all of the other issues, because unless we address 
the education gap you can't provide real economic opportunity, 
and that obviously has led to some of the security problems.
    One of the things that I think is working particularly well 
is, as part of 100,000 Strong for the Americas, the Educational 
Exchange Initiative, but also as part of our dialogues in both 
Brazil and Colombia on the elimination of discrimination and 
racism, we have been able to promote exchanges and interactions 
between educational institutions with historically black 
colleges and universities in the United States, with the Indian 
Tribal Colleges, as well as with Hispanic institutions in the 
U.S.
    All of those give a perspective on the United States that 
isn't always widely known in the hemisphere, and offer 
opportunities for those communities to access education in the 
United States.
    The other thing that we really need to do is focus on 
community colleges, which we know in the United States provide 
an invaluable opportunity for those who may not go to a 4-year 
university. This is a concept which is not well-known or 
understood in Latin America, and we are providing opportunity 
for kids who would never have had the option of coming to a 
school in the United States to learn a trade or a vocation 
before.
    Mr. Meeks. Let me try to sneak in one last question, if the 
chair--I beg his indulgence. Just the thought of this--we had 
conversations about the problematic governments that we have, 
et cetera. I was wondering whether or not there has been any 
areas of success in our engagements with problematic 
governments, because we are having this conversation and 
whether there is anything.
    Ms. Jacobson. I guess what I would say real quickly is just 
there are always areas that I think we can cooperate in. With 
Ecuador, most recently, they are very interested in doing more 
on education. So we have been able to continue programs on 
indigenous languages in Bolivia that AID and others work on.
    So my own view is places like Nicaragua where we work with 
the police in counternarcotics quite effectively, there are 
bright spots even in some of the toughest places, and we have 
to try and continue to hold to our principles in those 
countries and speak loudly about them, but look for areas where 
our interests do overlap.
    Mr. Salmon. Thank you.
    The chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you.
    Thank you for being here. The administration requested $1.3 
billion for Latin American and Caribbean region. This is about 
10 percent below the FY14 estimate, and about 27 percent lower 
than the amount provided in 2012. This budget also reflects 
cuts to the three largest U.S. security programs in the 
region--the Colombia Strategic Development Initiative, the 
Merida Initiative in Mexico, and the Central American Regional 
Security Initiative.
    But it increases things like development assistance and 
clean energy initiatives and family planning programs. So as 
chairman of the Oversight Subcommittee on the House Homeland 
Security Committee, I have heard of the importance of the 
security programs in the Western Hemisphere and their impact on 
U.S. border security efforts, et cetera.
    Further, when we consider the documented efforts of Russia, 
China, North Korea, and Iran to establish footholds and 
increase their influence in this region of the world, and then 
we hear from Commander of US SOUTHCOM in his testimony back in 
February, he admitted to U.S. intelligence gaps and truly 
knowing the full awareness of Iranian and terrorist support 
networks in the region, so I am baffled, really, at the 
priorities that are reflected in this budget.
    So how does cutting worthwhile security programs, while 
beefing up development, citizen security, clean energy 
initiatives, family planning programs, how does that secure--
serve U.S. security and our foreign policy interests?
    Ms. Jacobson. Thank you, Congressman Duncan. I think one of 
the things that I want to be clear on is, while there have been 
reductions in the Merida Initiative with Mexico and the 
Colombia security programs, in both of those cases those were 
anticipated reductions as partners became better able to take 
over their own security.
    With the Colombians now, it is critically important that we 
not reduce our programs too abruptly, but they are increasingly 
able to do things after a number of years of working with them. 
In fact, they are able to deliver security, training, and 
experience in capacity-building even in places like Central 
America, which has made them an invaluable partner.
    So I think that we are going to continue to see just as 
much engagement and just as much progress in those places even 
with lower investments in a tough budgetary environment.
    On Central America, the only thing that I would say is I 
know it has been reduced somewhat, but it is still a very high 
level in Central America because there the challenges have been 
resistant in some respects to change. So we did not take that 
down any lower than a level that we felt would continue to 
provide engagement with each of the individual countries which 
are still confronting terrible problems. I will let my 
colleague deal with some of the other development content.
    Ms. Hogan. Thank you very much. I would just like to 
underscore what Roberta said about government stepping up and 
investing more in their own development. In Mexico, as an 
example, the Mexican Government puts in $10 for every $1 that 
we invest there under the Merida Initiative. And in Colombia, 
for the government institutional programs that we support, like 
the Victims Assistance Unit, like the Reparations Unit, et 
cetera, et cetera, we are putting in only 1 percent of what the 
Colombian Government is putting in itself.
    As I mentioned in my opening statement, we also see the 
rise of private sector actors engaging in this region and 
investing more heavily in not just corporate responsibility but 
also, as I mentioned, workforce development, because they see 
it in their interest to train youth who don't have the skills 
they need to come in to work for them. And so increasingly we 
are seeing that as our investment glides downward, it is being 
picked up by both governments and the private sector.
    I wanted to talk about family planning for a moment to 
simply say that it has been a success story in our region in 
that back in the '70s when statistics were first collected only 
1 in 10 women had access to voluntary, safe, affordable, high 
quality family planning assistance. Today it is over 67 
percent, which is why we phased out of family planning in most 
of the countries in the region. We are only doing it in three 
countries--Guatemala, Honduras, and Haiti. And we are also 
going to be phasing out of Honduras very soon.
    And then, finally, on global climate change, the reason we 
are investing heavily in global climate change is because it is 
not only affecting people's lives but their livelihoods. In 
Haiti, as an example, we saw 1 year where after having 
significant gains in agricultural yields through our Feed the 
Future Program, our Food Security Program, they had two 
droughts and a hurricane, and it completely wiped out all of 
those gains that were made.
    And so adapting to climate change through the use of new 
seed varieties, for example, and energy efficiency and 
alternative energy is a way in which they can reduce their 
economic loss as well as the loss of life which exists in Haiti 
after these kinds of violent weather events.
    Mr. Duncan. Speaking of energy, we can have a whole hearing 
on whether climate change is manmade and whether we can have 
any impact on that or not and what the policy of the 
administration is doing to further an agenda.
    But I would like to hear how you are proposing to work with 
Latin American region countries on energy. And, look, I 
understand the solar panels that you have put up in areas that 
don't have electricity, and how you can improve the quality of 
life, and all of that. You don't need me to go there; I am with 
you on that. Okay? I understand a lot of that.
    But I would like to know, how are we working with Mexico? 
How are we working with some of these other countries on energy 
security? And let us focus south because Keystone Pipeline, the 
chairman has already mentioned I believe. So I would love to 
hear what some of the priorities are there.
    Ms. Jacobson. Thank you. I really appreciate that question. 
I think actually the future, in terms of energy and energy 
self-sufficiency, in this hemisphere is one of the most 
exciting areas we are looking at. But there is no doubt that 
when you talk about energy security and energy improvements, 
right, whether it is in North America where all of the 
countries are producing more energy, or in Brazil where you are 
looking at presalt deposits, or Argentina which has both oil 
and shale gas, you have big sections of this hemisphere which 
do not have energy resources, and which need support to make 
sure that they can try and access sustainable economic growth 
with energy that is not always going to be imported oil.
    In particular, in Central America and the Caribbean, we are 
looking--the North American countries need to look very 
carefully at how we can help those countries. Central American 
countries, some of it is connectivity. We have this Connecting 
the Americas 2022 Program, which is designed to connect the 
grids and make sure that electricity gets further out in these 
countries.
    In some places, that runs up against tough government 
resistance because of entrenched interests, but there is energy 
throughout the hemisphere that we can help bring--depending on 
the regulatory environment and bringing investors to countries, 
so that they are not as dependent on a single source of energy 
such as many in the Caribbean are on Petrocaribe.
    Mr. Duncan. So just finishing up here, how about export of 
LNG to the Caribbean countries?
    Ms. Jacobson. This was a subject that was of great interest 
to all of the Caribbean countries when they have met with both 
the President and the Vice President. And both have told the 
Caribbean countries and the Central American countries that 
they have heard that request, and they are definitely going to 
take it into consideration as we make determinations on export 
of LNG.
    Mr. Duncan. Thank you, Mr. Chairman. I went over time, and 
I appreciate your lenience.
    Mr. Salmon. Thank you.
    Mr. DeSantis, you are recognized.
    Mr. DeSantis. Thank you, Mr. Chairman.
    How would you characterize Russia's influence in the region 
and given what we are seeing with Putin, his impulses vis-a-vis 
Eastern Europe? Do we foresee him continuing to try to increase 
his presence and his ability to project power in the Western 
Hemisphere?
    Ms. Jacobson. Thank you for the question, Congressman. I 
think that what we have seen over the recent past is the 
Russian relationship with the hemisphere has been both 
economic, commercial, and, to some extent, military--that is, 
weapons and other equipment sales. And some of those have 
increased, although I would emphasize that the balance in the 
hemisphere has not changed. It is still very low in terms of 
Russian equipment or military sales.
    We have also seen the Russian comments recently, or others 
in the hemisphere, talking about renewed Russian presence. As 
you probably know, Russia closed its last base in the 
hemisphere in Cuba in 2002. In many countries in the 
hemisphere, it is constitutionally prohibited to have foreign 
bases.
    And our information thus far is that no country we have 
spoken to is in the process of opening any Russian bases in the 
hemisphere, but you can be certain that it is something we are 
continuing to watch very closely.
    Mr. DeSantis. And so what would the administration's policy 
be if, for example, Russia wanted to reestablish a base in Cuba 
and Cuba was supportive of that?
    Ms. Jacobson. I am always wary of hypotheticals. But it is 
something that we have made clear we would have difficulty 
with, and we certainly hope the countries in the hemisphere are 
not looking at that possibility. But right now we don't see 
that happening.
    Mr. DeSantis. With respect to Venezuela--and I join some of 
my colleagues who would like to see some more movement there--I 
think that those folks are really fighting against a corrupt 
regime. Can you give us a sense as to the extent to which, as 
it stands now, that regime is being propped up by Castro's 
regime in Cuba?
    I mean, I know I have read that there are tens of thousands 
of Cuban troops that are in Venezuela. So what is the 
administration's position on the extent of Cuban influence in 
this Venezuelan situation?
    Ms. Jacobson. Well, certainly we have seen the same 
information that I think all of you have in terms of the 
numbers of Cubans in Venezuela. They are high. There are a lot 
of Cubans there. Whether that has had a determinative effect on 
how Venezuelan decisions have been made is not entirely clear, 
quite honestly, but obviously it is something that concerns us.
    Similarly, though, it is very clear that Cuba is highly 
dependent on Venezuela's oil, and so that is a relationship in 
which each of them obviously has a great deal at stake. At this 
point, that is one of the reasons we think it is so important 
for all Venezuelans to have a voice, because it is important 
that the decisions ultimately be made by Venezuelans, not by 
any outside country.
    Mr. DeSantis. Absolutely. I look at a place like Bolivia, 
and it just seems like there is a lot of bad actors that have 
really a leftist government. I know there is Cuban influence, 
Venezuela influence. I have read, and I wanted to get your 
thoughts on the extent to which the Iranians are trying to 
exert influence in the region generally, but I specifically 
have heard reports with respect to Bolivia.
    Ms. Jacobson. We watch the Iranian presence very carefully, 
because as has been said before by my bosses, we do not 
consider it benign in the hemisphere. It is something we do 
watch and worry about and monitor.
    At this point, we don't see an enormous amount of Iranian 
influence in countries like Bolivia or Venezuela, not 
necessarily for lack of trying. There are lots of agreements 
signed and there are visits. What we don't necessarily see is 
implementation or completion of those agreements. They tend to 
be more rhetorical, designed to convey a sense of influence 
that we don't necessarily see taking place on the ground.
    But that does not mean that we are not going to be watching 
it very closely. And as we have done in the past, when there 
have been entities in the hemisphere that have engaged with 
Iranian ways that either violate U.S. sanctions or U.N. 
sanctions we will take action to sanction those organizations 
as we have done with a number of organizations in Venezuela 
over the years.
    Mr. DeSantis. Great. Well, thank you for that.
    And I am about out of time, so I will yield back the 
balance to the chairman.
    Mr. Salmon. I thank the gentleman.
    If you have time, I know the ranking member and I each have 
another question. And if you have another one also, Mr. 
DeSantis, that would be great.
    Just a comment on Mr. Duncan's concerns about LNG and the 
Caribbean. I don't think the issue is the State Department. The 
State Department I think is very, very helpful where we have 
been considering that. Every time I have talked to your folks, 
they have been very, very supportive. The problem is the 
Department of Energy and getting the permits going.
    And I have also had numerous meetings with folks from our 
energy industry, oil and gas industry, and they are capping the 
gas off. And they are burning off excess gas because we have so 
much surplus right now.
    And it seems like it would be an incredible opportunity for 
us not just to be able to create jobs from the sale of that 
gas, but also from a geopolitical perspective, it would be so 
great. We would able to further enhance our trade relationship 
with those countries in the Caribbean. So any chance you get to 
talk with your counterparts in DOE, we would really appreciate 
your thoughtful suggestions to them to maybe get off the dime a 
little bit.
    Assistant Secretary, you mentioned the 100,000 Strong 
Program, and I noted that included in the list of countries 
eligible to participate is Ecuador. And we have discussed they 
are not necessarily a real good partner as of late, and not 
really heading in the right direction.
    Yet Paraguay is not included among the eligible countries, 
and they have been making a lot of reforms, trying to be a good 
partner in the region. And I am concerned about the message 
that sends to the people of Paraguay. Is there something we can 
do about that.
    Ms. Jacobson. No. Let me clarify. Everyone is eligible to 
participate, and certainly Paraguay is. I was actually just in 
Paraguay about 10 days ago--a great relationship, a lot going 
on, and definitely a place where we want to increase the 
educational exchanges, among other things.
    Mr. Salmon. Okay. Well, that is good, because I have had 
folks from Paraguay expressing some concern. And so if that is 
the case, then maybe it is just a lack of understanding.
    Ms. Jacobson. We had a conversation about it when I was 
there, and I think there was a bit of a miscommunication, and 
we are now working to move ahead on increased partnerships. 
Thank you for that.
    Mr. Salmon. Okay. That is great.
    Mr. Sires.
    Mr. Sires. I just have one question. I was wondering why, 
as I look through my notes, we are increasing funding to El 
Salvador, where they also may receive a second Millennium 
Challenge Corporation Compact worth $277 million. Why hasn't 
the administration decided to prioritize aid to El Salvador as 
compared to other countries in Central America?
    Ms. Jacobson. Let me just start that off, and Beth may have 
some additional comments. First of all, the approval of a 
second compact for MCC--and I don't like to speak for them--but 
it is my understanding that the approval of the second compact 
for MCC was quite a few months ago. And because elections were 
coming up in El Salvador, it was important to hold off on 
moving ahead because there was going to be a new government.
    So that has been held, and we now do have a government that 
will be taking office in June, I think, is the inauguration, 
and then we will see about moving forward on that. But El 
Salvador had met all of the criteria for a second compact. El 
Salvador is also a partnership for growth country, and, 
obviously, that is something that is more Beth's lane than 
mine.
    Obviously, we are hopeful that we are going to be able to 
work with this new government, and there are some signs that 
some of the people being appointed to positions such as from 
the private sector into the economic team, that there is a real 
understanding of the importance of working with the private 
sector.
    El Salvador still faces huge challenges. Its murder rate 
has gone back up. And so there is a real desire I think to work 
with El Salvador and on the issues that they face. But, 
obviously, with the new government coming in, we will have to 
see how that relationship plays out.
    Mr. Sires. They still have a big gang issue.
    Ms. Jacobson. Yes. No. I mean, that is a huge issue and one 
that is important to us, because we see the connections to it 
here in the United States. As Beth noted, the communities where 
we have worked have seen reductions in crime, and our hope is 
that the new Salvadoran Government can try and replicate those 
models to reduce some of the gang violence and some of the 
prevention for young people going into gangs in the first 
place.
    But let me assure you, frankly, that Honduras and Guatemala 
remain extremely high priorities for us. It is not really a 
question of one or the other. All of them confront huge 
challenges.
    Mr. Sires. Ms. Hogan?
    Ms. Hogan. Well, I would just like to add a point to 
elaborate a little bit on the decrease that we are seeing in 
crime and violence in the communities in which we are working. 
We are going through a comprehensive evaluation of our citizen 
security programs, particularly our violence reduction 
programs.
    And what we--we have finished the Guatemala--excuse me, the 
El Salvador chapter of this study, and what we have seen is 
that in the communities where USAID has invested in crime and 
violence reduction strategies, there has been a 33-percent drop 
in robberies, a 67-percent decrease in homicides, and a 110-
percent decrease in extortions and bribery.
    So we have got a model that is working. We are also doing 
these evaluations in other countries, and we look forward to 
bringing you that evaluation when it is available and briefing 
you on it, because I think, we have found a model that works.
    Mr. Sires. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    Mr. DeSantis, did you have an additional question?
    Well, I think we have asked the questions that have been on 
our minds, and we really appreciate all of your thoughtful 
responses.
    There is no further business, so this subcommittee is 
adjourned.
    Thank you.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
